                                 AR 07-003




FEDERAL TRADE COMMISSION

   Office of Inspector General




    REVIEW OF THE FTC
CONSUMER RESPONSE CENTER




           July 2007
                                                   UNITED STATES OF AMERICA
                                            FEDERAL TRADE COMMISSION
                                                      WASHINGTON, D.C. 20580



Office of Inspector General




                                                  July 10, 2007


TO:                   Lydia P. Barnes, Director,
                      Bureau of Consumer Protection

ATTN:                 David M. Torok, Associate Director
                      Division of Planning & Information
                      Bureau of Consumer Protection

FROM:                 Howard L. Sribnick
                      Inspector General

SUBJECT:              Audit Report AR 07-003 - Review of the FTC’s Consumer Response Center


This report presents the results of our audit of the FTC’s Consumer Response Center. Your
written response to the draft report is included as exhibit A with excerpts incorporated into the
relevant sections of the report. Your response contained sufficient justification to reach closure
on all recommendations.

We appreciate the courtesies and cooperation extended to our staff during this review.
Executive Summary

Results in Brief   The Federal Trade Commission (FTC) was created in 1914, with the
                   objective to prevent unfair methods of competition in commerce as part of
                   the battle to “bust the trusts.” In 1938, Congress passed a broad
                   prohibition against “unfair and deceptive acts or practices.” Since then, the
                   Commission also has been directed to administer a wide variety of other
                   consumer protection laws, including the Telemarketing Sales Rule, the
                   Pay-Per-Call Rule, and the Equal Credit Opportunity Act. Even though
                   there are numerous legitimate and honest businesses, a small percentage
                   preys on vulnerable and innocent consumers. In an effort to curtail their
                   illegal activities, the FTC established the Consumer Response Center
                   (CRC) to collect consumer complaints.

                   The CRC receives approximately 30,000 to 40,000 contacts per week from
                   consumers, law enforcement agencies, and other consumer advocate
                   groups. Approximately 10,000 to 12,000 of those contacts are consumer
                   complaints. Consumer complaints are entered into the Consumer
                   Information System database (CIS). In addition to FTC personnel, external
                   agencies can enter complaints into CIS or provide complaints in bulk to
                   the CRC for uploading into CIS.

                   The CIS is a powerful crime-fighting tool, much of which is available to
                   the federal, state, and local, as well as international, law enforcement
                   community. Law enforcement and consumer advocate groups use CIS data
                   to identify and track trends and potential problems affecting the
                   marketplace.

                   For many consumers that turn to the FTC for assistance the CRC is the
                   only contact they have with the FTC. This contact is in the form of either a
                   recorded telephone message, whereby consumers input their complaints
                   by pressing the appropriate numbers on the telephone dial pad, followed
                   by leaving a brief message, an electronic form (e-form) on the FTC
                   Internet site or a complaint by mail in response to which they receive a
                   form letter.

                   A number of consumers have complained to the OIG that they were not
                   satisfied with their contact with the FTC through the CRC. Most often,
                   they express disappointment that the FTC will not take immediate action
                   to address their individual complaint and that they will not be able to track
                   what action is taken in response to their complaint.



FTC/OIG-A/AR 07-003                                                                           ii
                    The OIG understands that the FTC cannot investigate each individual
                    complaint it receives. However, we believe that the CRC can better
                    communicate to complainants the Commission’s role and that consumers
                    should be made aware that their individual complaints would not be
                    investigated before they make the decision that they want to complete the
                    e-form.

                    Our review of the eight thousand consumer complaints made directly and
                    entered into the CIS showed that the data entered by CRC personnel, and
                    the call center was accurate and well documented. Only two or three
                    individual complaints lodged with the CRC of each one thousand
                    complaints reviewed were not accurately categorized. This is
                    commendable work for entering approximately 10,000 to 12,000
                    consumer complaints per week. The low number of error’s by CRC
                    personnel and the call center is a sign of an effective and thorough training
                    program.

                    The OIG found that not all complaints uploaded from external reporting
                    agencies is correctly identify under the appropriate product service code
                    (PSC) in Consumer Sentinel. This occurred when bulk data was uploaded
                    from external agencies into CIS. The result is inaccurate data being
                    provided to investigators doing trend analysis on a specific industry or
                    product. For instance, an investigator tracking trends in the credit repair
                    industry would have an erroneous trend analysis if large numbers of
                    complaints regarding retail credit or creditor debt collection were encoded
                    as credit repair.

Recommendation
in Brief       The OIG recommends that the Division of Planning & Information (DPI)
               redesign the electronic complaint form to include a webpage prior to the
               consumer filling out their complaint. DPI should consider including on the
               new page information contained in the form letter sent to consumers that
               submit written complaints to the CRC.

                    Following this information, a decision button would allow the consumer to
                    decide to proceed with the complaint while assuring that they understand,
                    at the outset, the limitations on the agency’s ability to address their
                    individual complaint.

                    The OIG also recommends that the CRC revise the complaint form to
                    make it more user friendly.

                    In addition, the OIG recommends that all CIS complaints be included in
                    the revamped Consumer Sentinel system and shared with the FTC’s
                    external law enforcement partners.

FTC/OIG-A/AR 07-003                                                                           iii
Abbreviations Used in This Report


BBB              Better Business Bureau
BCP              Bureau of Consumer Protection
CIS              Consumer Information System
CRC              Consumer Response Center
DNC              Do Not Call
DPI              Division of Planning & Information
FTC              Federal Trade Commission
FY               Fiscal Year
OIG              Office of Inspector General
PSC              Product Service Code
TSR              Telemarketing Sales Rule




FTC/OIG-A/AR 07-003                                   iv
Table of Contents
Executive Summary ...................................................................................................................... ii

Abbreviations Used in This Report ............................................................................................ iv

Background Scope Objectives and Methodology....................................................................... 1

    Background............................................................................................................................... 1

    Scope.......................................................................................................................................... 1

    Objectives.................................................................................................................................. 1

    Methodology ............................................................................................................................. 2

Findings and Recommendations.................................................................................................. 3

Section 1 FTC Consumer Complaint Form.............................................................................. 3

Finding 1 CRC’s Interaction with Consumers Can Be Improved .......................................... 3

        Recommendation 1................................................................................................................ 4
        Recommendation 2................................................................................................................ 5

Finding 2 Consumer Complaints Uploaded from External Agencies Are Not Always
Categorize in the Consumer Sentinel Under an Appropriate Product Services Code........... 6

        Recommendation 3................................................................................................................ 8
        Recommendation 4................................................................................................................ 9

Exhibit A –– Management Response......................................................................................... 10




FTC/OIG-A/AR 07-003                                                                                                                                v
Background Scope Objectives and Methodology
Background       The FTC, through its Bureau of Consumer Protection (BCP), is
                 responsible for enforcing a number of statutes enacted to protect
                 consumers against unfair, deceptive, or fraudulent business practices. BCP
                 also has responsibilities, pursuant to specific statutes, for dealing with
                 other consumer matters involving credit, debt, and identity theft. In order
                 to fulfill these obligations, BCP operates the Consumer Response Center
                 (CRC). The CRC accepts complaints from consumers via the telephone,
                 the Internet, and the mail. In addition, the CRC provides educational
                 publications to consumers, businesses and other organizations.

                 BCP uses the Consumer Information System (CIS) as the primary system
                 to collect, analyze, extract, distribute, and archive/purge data relating to its
                 mission. In addition to recording instances of business practices related to
                 fraud, financial loss, identity theft, and do not call complaints, CIS also
                 facilitates consumer requests for educational material. As of September
                 25, 2006, CIS contained approximately 6.07 million records.

                 CIS interconnects with several applications within the FTC. One of these
                 applications, the Consumer Sentinel Network, currently serves more than
                 9,000 law enforcement users across the world. Consumer Sentinel
                 provides authorized users with integrated access to the worldwide justice
                 network of about 1,600 law enforcement agencies. Through this network,
                 federal, state, local, and international law enforcement and justice agencies
                 have access to a comprehensive set of consumer protection-related
                 complaints.

                 The majority of the records in CIS are received by the FTC’s CRC
                 through two toll-free telephone numbers, online complaint forms, and
                 mail. These records include consumer complaints and requests for
                 information. In addition, other public and private entities share consumer
                 complaint data with the FTC, which is entered into CIS.

Scope            The scope of our review was consumer complaints received during Fiscal
                 Year (FY) 2005, FY 2006, and FY 2007. A limited sample of these
                 consumer complaints were selected for in depth review. In addition, we
                 reviewed the customer interface and the impact of using the website and
                 automated phone system.

Objectives       The objective of our review was to evaluate pertinent policies and
                 procedures regarding the operation of the CRC, assess the kind of
                 information obtained from consumers, and determine how consumer
                 complaints are categorized.


FTC/OIG-A/AR 07-003                                                                      Page 1
Methodology      We reviewed the regulations, policies, and procedures of the Consumer
                 Response Center. We obtained complaints entered into the Consumer
                 Information System (CIS) database. We examined the complaints from
                 CIS to determine if they were accurately categorized. We reviewed CIS
                 reports for a one-year period (May 2006 through May 2007) on randomly
                 selected PSC’s. We used no predetermined process to select the PSC
                 reviewed.

                 We conducted this audit in accordance with Government Auditing
                 Standards issued by the Comptroller General of the United States.
                 Accordingly, the audit included such tests of program and accounting
                 records as considered necessary to meet the audit objectives.

                 We conducted our fieldwork for this audit during the months of April
                 2007 and May 2007.




FTC/OIG-A/AR 07-003                                                            Page 2
Findings and Recommendations
Section 1 FTC Consumer Complaint Form

Finding 1   CRC’s Interaction with Consumers Can Be Improved

            The CRC receives approximately 30,000 to 40,000 contacts per week from
            consumers, law enforcement agencies, and other consumer advocate groups.
            Approximately 10,000 to 12,000 of those are consumer complaints. Consumer
            complaints are entered into the Consumer Information System database (CIS). In
            addition to FTC personnel, external agencies can enter complaints into CIS or
            provide complaints in bulk to Division of Planning & Information (DPI) staff for
            uploading into CIS.

            The CIS is a powerful crime-fighting tool, much of which is available to the
            federal, state, and local, as well as international, law enforcement community.
            Law enforcement and consumer advocate groups use CIS data to identify and
            track trends and potential problems affecting the marketplace.

            For many consumers the CRC website is the only contact they have with the FTC.
            This contact is in the form of either a recorded telephone message, whereby they
            input their complaint by pressing the appropriate numbers on the telephone dial
            pad, followed by leaving a brief message, an electronic form (e-form) on the FTC
            Internet site or by mail.

            A number of consumers have complained to the OIG that they were not satisfied
            with their contact with the FTC through the CRC. Most often, they express
            disappointment that the FTC will not take immediate action to address their
            individual complaint and that they will not be able to track what action is taken in
            response to their complaint.

            Currently, the initial contact that most consumers have with the FTC is filling out
            the FTC Consumer Complaint Form (e-form). Even though most consumers never
            speak with a live counselor, they do have certain expectations about their
            complaints. Their expectations include:

               •   Their complaint is important,
               •   Their complaint is going to be investigated, and
               •   That someone will take action on their behalf.




FTC/OIG-A/AR 07-003                                                                      Page 3
           The following is some excerpts from individual complaints where consumers
           were expecting or asking for assistance:

              •   “…please write me back about this problem.”
              •   “…can you please help?”
              •   “Please take action immediately.”
              •   “Filed a previous complaint but have never had a response. Would
                  appreciate one.”
              •   “Is there anyone there that can advise me…Any information you can give
                  me would be greatly appreciated.”
              •   “Please help me with this.”

           The OIG is mindful that the CRC receives approximately 10,000 to 12,000
           consumer complaints per week. We are conscious that the FTC cannot resolve
           each individual complaint and that it is not economically feasible for each
           consumer to speak with a live counselor. The OIG also recognizes that the BCP
           takes action through investigations. and legal proceedings, to force the dishonest
           out of business and attempt to recover the ill-gotten gains from wrongdoers, and
           that complaints filed by consumers are critical to the identification of fraudulent
           activities.

           In advancing a positive image of the FTC, the OIG believes that the consumer
           should be better educated concerning how the CRC uses their complaint, prior to
           their completing the e-form, or telephone call.

           We also recommend that the complaint form (e-form) be revised to be more user
           friendly.

Recommendation 1

           The OIG recommends that BCP place a decision button on the FTC web
           Consumer Complaint Form that a consumer must click certifying they are aware
           that the FTC does not resolve individual consumer problems. If the consumer
           clicks on the affirmative, then the e-form opens and the consumer may enter their
           complaint.

           The BCP may consider using the following language contained in the form letter
           sent to complainants who write to the FTC for the new web page.

                  What happens to your complaint?

                  The Federal Trade Commission acts in the public interest to stop
                  business practices that violate the laws it enforces. Information
                  from consumers and businesses are very important to the work of
                  the Commission. They are often the first indication of a problem in

FTC/OIG-A/AR 07-003                                                                     Page 4
                  the marketplace and may provide the initial evidence to begin an
                  investigation. The Commission does not resolve individual
                  complaints. The Commission can, however act when it sees a
                  pattern of possible violations developing.

                  The information provided will be recorded in our complaint
                  retention system. This computerized system enables us to identify
                  questionable business practices that are generating numerous
                  complaints and may be in violation of the law.

                  If you wish to proceed with the filing of a complaint, please press...

     Management Response

           We agree that the consumer should be educated concerning how the CRC uses
           their complaint information prior to completing the electronic complaint form or
           telephone call. For that reason, we include the following text on the FTC
           electronic complaint form:

                  While the FTC does not resolve individual consumer problems,
                  your complaint helps us investigate fraud, and can lead to law
                  enforcement action. The FTC enters Internet, telemarketing,
                  identity theft and other fraud-related complaints into Consumer
                  Sentinel, a secure, online database available to hundreds of civil
                  and criminal law enforcement agencies worldwide.

           Similar information is provided via the IVR system to consumers who call the
           CRC to provide a complaint.

           We believe it important that consumers see and are aware of the information we
           currently provide on our complaint form. At the same time, we do not want to
           discourage consumers from filing valid complaints with the FTC. We will
           examine ways to balance these two interests as we redesign our consumer
           complaint forms

     OIG Position

           The OIG is mindful that the CRC will examine ways to balance the two interests
           as they redesign the consumer complaint form. We agree with management’s
           response and consider this recommendation closed.

Recommendation 2

           The OIG recommends that BCP relocate the block “Explain Your Problem:
           (Please limit your complaint to 2000 characters.)” to the first item under the
           subheading “Tell Us Your Complaint…”
FTC/OIG-A/AR 07-003                                                                        Page 5
      Management Response

            We do not understand how placing the comment field first would make the
            complaint form more user friendly. From a database standpoint, it is important to
            gather information about the source of the complaint in clearly defined fields. By
            placing the free-form comment field first, we believe consumers will include all
            of the important data about the subject of their complaints in the comment field
            itself, rather than in the more easily searchable data fields for company name,
            address, telephone number, etc. While we will be looking for ways to make the
            electronic complaint form more user friendly in the CIS redesign, we need
            additional information to justify the recommended comment field placement.

      OIG Position

            The OIG agrees with management’s response and considers this recommendation
            closed. The CRC will examine ways during the redesign of the CIS to make the
            electronic complaint form more user friendly.

Finding 2   Consumer Complaints Uploaded from External Agencies Are Not
            Always Categorize in the Consumer Sentinel under an Appropriate
            Product Services Code

            Our review of the eight thousand consumer complaints made directly to the CRC
            and entered into the CIS showed that the data entered by CRC personnel, and the
            call center was accurate and well documented. Only two or three individual
            complaints lodged with the CRC of each one thousand complaints reviewed were
            not accurately categorized. This is commendable work for entering approximately
            10,000 to 12,000 consumer complaints per week. The low number of error’s by
            CRC personnel and the call center is a sign of an effective and thorough training
            program.

            The DPI staff also uploads into the CIS consumer complaints from external
            entities, such as the Better Business Bureau (BBB). We were advised by the
            Director of DPI, that many external law enforcement agencies and others, such as
            the BBB, gather consumer complaint information using their own internal
            systems and databases. They often gather different information, or gather
            information in a different format, than the FTC. This is particularly true when it
            comes to classifying the complaints by problem areas. DPI staff classifies all
            consumer complaints entered into CIS by a PSC, using a list developed internally
            by our staff. Other agencies use different methods or different product/service
            codes. For example, the BBB’s classify their complaints using codes developed
            by the Yellow Pages telephone directory – a list that is much more detailed.

            The OIG found that the process that the DPI staff and data analysts use to map the
            bulk data from external entities to CIS fields and codes does not always assure the
FTC/OIG-A/AR 07-003                                                                     Page 6
           complaint has been tracked to the appropriate PSC. As a result, deceptive trade
           practices within certain industries or product failure trends may not be accurately
           tracked.

           We reviewed CIS reports for a one-year period (May 2006 through May 2007) on
           randomly selected PSC’s. We used no predetermined process to select the PSC
           reviewed.

           The OIG reviewed 2,574 consumer complaints uploaded from an external agency
           that were tracked into three PSC’s for (1) Health Care: Diet
           Products\Centers\Plans, (2) Credit Repair, and (3) Internet Access Services. The
           review found that 1,596 of 2,574 (62 percent) PSC’s used by the CRC did not
           accurately reflect the nature of the complaint. The following represents the totals
           for each of the three PSC’s:

              •   Health Care: Diet Products\Centers\Plans
                     o 1,000 complaints
                     o 697 not accurately tracked into an appropriate PSC’s
                     o 69.7 percent not accurately tracked into an appropriate PSC’s

              •   Credit Repair
                     o 574 complaints
                     o 321 not accurately tracked into an appropriate PSC’s
                     o 55.9 percent not accurately tracked into an appropriate PSC’s

              •   Internet Access Service
                      o 1,000 complaints
                      o 578 not accurately tracked into an appropriate PSC’s
                      o 57.8 percent not accurately tracked into an appropriate PSC’s




FTC/OIG-A/AR 07-003                                                                    Page 7
           The OIG review disclosed that of the 1,000 complaints categorized under the PSC
           for Health Care: Diet Products\Centers\Plans, 697 would have been more
           accurately categorized under the PSC for Fitness Centers\Health Clubs. Likewise,
           we found that complaints categorized under the PSC for Credit Repair included
           complaints about retail credit providers and bill collectors. Finally, complaints
           categorized under the PSC for Internet Access Services included complaints about
           businesses selling retail products via the internet.

           The Director of DPI explained the process used to import externally generated
           consumer complaints as follows. The CIS PSC’s currently are divided into two
           categories: those that are shared with our external law enforcement partners
           through Consumer Sentinel, and those that are not shared. The Consumer Sentinel
           PSC’s include those areas generally associated with fraudulent sales practices,
           including Internet scams, online auctions, business opportunities, advance fee
           loans, and telemarketing. Complaints involving non-Sentinel PSC’s currently are
           included in CIS and made available only to FTC law enforcement staff. The CRC
           tries to classify all consumer complaints they accept from external agencies with a
           Sentinel PSC so that the complaints can be shared with other agencies. Because of
           the limited number of Sentinel PSC’s currently used, some externally generated
           consumer complaints may be tracked to what appears to be an inappropriate PSC.

           During the exit conference, the Director of DPI also explained that during the
           revamp of the CIS, the BCP’s, Division of Planning & Information, would be
           notifying the Commission they plan to include all CIS complaints in the revamped
           Consumer Sentinel system. With this change in policy, BCP will no longer have
           to limit the PSC’s to which external agencies’ complaints are transferred.

Recommendation 3

           The OIG recommends that all PSC’s be included in the revamped Consumer
           Sentinel system.

     Management Response

            As part of the CIS and Consumer Sentinel redesign, we plan to notify the
           Commission about the change in procedure to allow all CIS complaints to be
           included in the revamped Consumer Sentinel system and to be shared with our
           external law enforcement partners.

     OIG Position

           OIG accepts management response and considers this recommendation closed.




FTC/OIG-A/AR 07-003                                                                    Page 8
Recommendation 4

           The OIG recommends that BCP conduct an outreach or training plan with
           external agencies that provide bulk data that is uploaded into CIS. For example,
           the agency might suggest the external agencies use the FTC Complaint e-form
           that provides pull down menus of PSC’s as well as other useful information.

     Management Response

           Since external agencies that provide us with consumer complaints operate their
           own internal complaint processing systems and databases, it would not be
           appropriate to train them on the correct data collection methods for their systems.
           These agencies have spent considerable time, effort, and resources developing
           their own internal systems, and use those systems for their own reporting and
           tracking needs. It is highly unlikely that they would use the FTC complaint form
           in lieu of their own systems. In addition, external agencies provide their
           complaints to us voluntarily, often at their own expense. We are grateful for this
           data, and do not want to impose rules on them for contributing complaints.
           However, we often discuss with smaller agencies that do not have their own
           consumer complaint systems the benefits that they could realize by using
           Consumer Sentinel for that purpose.

     OIG Position

           OIG accepts the agency response and considers this recommendation closed.




FTC/OIG-A/AR 07-003                                                                    Page 9
Exhibit A –– Management Response
                                                                              Exhibit A – Page 1 of 1

MEMORANDUM

TO:           Howard L. Sribnick
              Inspector General

FROM:         David M. Torok, Associate Director
              Division of Planning & Information
              Bureau of Consumer Protection

SUBJECT:      Response to Discussion Draft Audit Report AR 07-003
              Review of the FTC’s Consumer Response Center

DATE:         June 12, 2007

       Thank you for the opportunity to respond to the discussion draft audit report, dated
May 25, 2007, regarding the FTC’s Consumer Response Center (CRC). We appreciate the
thorough, professional, and courteous manner in which your office conducted this audit. We
also appreciate the conclusion in the draft audit report that the CRC produces “commendable
work” in entering accurate and complete consumer complaint data into the Consumer
Information System (CIS), reflecting “an effective and thorough training program.” In this
response, we will address each of your findings and recommendations in turn.

Finding 1:    CRC’s Interactions With Consumers Can Be Improved

        The CRC continually is looking for methods through which it can improve the services it
provides to consumers, and thus we welcome your recommendations in this area. Before
addressing them specifically, however, we wish to correct two statements included under this
finding. First, the CRC handles approximately 30,000 to 40,000 consumer contacts per week.
Approximately 10,000 to 12,000 of those contacts are complaints. Many consumer contacts to
the CRC are requests for information, rather than complaints, that are handled in a completely
automated manner by the Interactive Voice Response (IVR) telephone system. Those calls never
reach a CRC counselor, and consumer information typically is neither gathered nor entered into
CIS. Consumers obtain the information they need from the automated system and end the call.1
Second, when consumers file a complaint with the CRC over the telephone, they will always
speak to a counselor at some point in the call. Initial identifying information from the consumer
may be gathered through the consumer “pressing the appropriate numbers on the telephone dial

       1
                In a small subset of request for information calls, consumers seek FTC
publications. In those calls, consumer contact information is gathered and entered into CIS so
that the publications can be sent.

FTC/OIG-A/AR 07-003                                                                        Page 10
pad,” as stated in this finding, but the crux of the complaint is then collected directly from the
consumer by the counselor. As a general matter, we do not take consumer complaint
information via voice mail messages from consumers.

       Recommendation 1

       The OIG recommends that BCP place a decision button on the FTC web
       Consumer Complaint Form that a consumer must click certifying that they are
       aware that the FTC does not resolve individual consumer problems. If the
       consumer clicks on the affirmative, then the e-form opens and the consumer may
       enter their complaint.

        We agree that the consumer should be educated concerning how the CRC uses their
complaint information prior to completing the electronic complaint form or telephone call. For
that reason, we include the following text on the FTC electronic complaint form:

       While the FTC does not resolve individual consumer problems, your complaint
       helps us investigate fraud, and can lead to law enforcement action. The FTC
       enters Internet, telemarketing, identity theft and other fraud-related complaints
       into Consumer Sentinel, a secure, online database available to hundreds of civil
       and criminal law enforcement agencies worldwide.

Similar information is provided via the IVR system to consumers who call the CRC to provide a
complaint.

        We believe it important that consumers see and are aware of the information we currently
provide on our complaint form. At the same time, we do not want to discourage consumers from
filing valid complaints with the FTC. We will examine ways to balance these two interests as we
redesign our consumer complaint forms.2

       Recommendation 2

       The OIG recommends that BCP relocate the block “Explain Your Problem:
       (Please limit your complaint to 2000 characters)” to the first item under the
       subheading “Tell Us Your Complaint . . .”

      This recommendation is based on the stated effort to make the FTC’s electronic
complaint form “more user friendly.” Currently, we gather information about the subject of the
complaint first, such as the company name, address and telephone number, how the company

       2
                We recently awarded a contract to Lockheed Martin to rebuild and redesign the
CIS database and the Consumer Sentinel website, and to operate both outside of the FTC. The
contract also requires Lockheed Martin to operate both the CRC and the National Do Not Call
Registry in a unified system with CIS and Sentinel. The expected delivery date for the
redesigned CIS and Sentinel website is April 1, 2008.

FTC/OIG-A/AR 07-003                                                                          Page 11
contacted the consumer, and the amount the consumer paid. We then use the comment field (the
field entitled “Explain Your Problem”) to allow the consumer to provide any additional
information that he wishes.

         We do not understand how placing the comment field first would make the complaint
form more user friendly. From a database standpoint, it is important to gather information about
the source of the complaint in clearly defined fields. By placing the free-form comment field
first, we believe consumers will include all of the important data about the subject of their
complaints in the comment field itself, rather than in the more easily searchable data fields for
company name, address, telephone number, etc. While we will be looking for ways to make the
electronic complaint form more user friendly in the CIS redesign, we need additional information
to justify the recommended comment field placement. We look forward to additional
discussions on this subject.

Finding 2:     External Agencies Do Not Always Categorize Complaints by the Correct
               Product Services Code

       After reviewing this finding and its accompanying recommendations, we believe we may
not have provided sufficient information during the audit concerning the process by which we
upload into CIS bulk complaints from external agencies (a process we call a “crosswalk”). We
want to provide that background information before addressing the discussion draft
recommendations.

        Many external law enforcement agencies and others, such as the Better Business Bureaus
(BBBs), gather consumer complaint information using their own internal systems and databases.
They often gather different information, or gather information in a different format, than the
FTC. This is particularly true when it comes to classifying the complaints by problem areas. We
classify all consumer complaints entered into CIS by a product/service code, using a list
developed internally by our staff.3 Other agencies use different methods or different
product/service codes. For example, the BBBs classify their complaints using codes developed
by the Yellow Pages telephone directory – a list that is much more detailed than ours.

        When an agency agrees to share its complaint data with us, one of the first steps in the
process is to develop a translation table to transfer appropriate data fields collected by the
external agency to an associated data field in CIS. In addition, we translate codes from one
system to another, so that complaints gathered under one product/service code by the external
agency are transferred to the appropriate product/service code in CIS. In some instances, we
may transfer complaints from multiple codes used by the external agency to a single
product/service code in CIS. We make these determinations regarding the appropriate
translation after gathering information from the external agency regarding the content included
within their product/service codes and the ways they use and operate their system.



       3
               We review this list annually for appropriate modifications.

FTC/OIG-A/AR 07-003                                                                       Page 12
       Once this translation is completed and the proper crosswalk script is developed,
complaints will be transferred from the external agency to us, usually in bulk electronic form.
The crosswalk process will be run on that data, making the translation of fields from the external
agency system to ours. Each time the data is loaded into CIS, a quality assurance review is
conducted to ensure that the correct translation occurred and the complaints were loaded as
required.

        It is also important to know that our CIS product/service codes currently are divided into
two categories: those that are shared with our external law enforcement partners through
Consumer Sentinel, and those that are not shared. The Sentinel product/service codes include
those areas generally associated with fraudulent sales practices, including Internet scams, online
auctions, business opportunities, advance fee loans, and telemarketing. Complaints involving
non-Sentinel product/service codes currently are included in CIS and made available only to
FTC law enforcement staff. As a matter of policy, we try to classify all consumer complaints
which we accept from external agencies with a Sentinel product/service code, so that the
complaints can be shared with other agencies.4 In other words, if a complaint from an external
agency does not fit within a Sentinel product/service code, we generally do not accept it.5

        Finally, Consumer Sentinel is primarily a law enforcement tool, not a reporting
mechanism. The principal purpose of Consumer Sentinel is to share consumer complaints with
our law enforcement partners. It is not meant to offer statistically sound information about
consumer problems in the marketplace. Our law enforcement partners typically search the
database for consumer complaints about a specific target by name, or search for targets operating
within certain geographic or programmatic areas. Individual consumer complaints about targets,
gathered from a variety of sources, are the most valuable resources offered by the system. Even
if a complaint is included with an incorrect product/service code, it can still be found by
members searching for complaints about the entity named therein, and it can still be an important
piece of evidence in their investigations.

        With this background information in mind, we can examine the specific examples cited in
the discussion draft. As previously mentioned, BBBs categorize their consumer complaints with
a more detailed list than that used by the FTC. As a result, in many instances, complaints from
multiple BBB complaint categories are included in a single CIS product/service code. For
example, in our product/service code entitled “Health Care: Diet Products\Centers\Plans,” we

       4
                In certain situations, we have accepted complaints dealing with fraudulent
practices, but for which we do not have a corresponding product/service code or for which we
cannot determine the proper code based on the external agency’s procedures. Such complaints
are coded with the “Other” category, and made available on Consumer Sentinel.
       5
               As part of the CIS and Sentinel redesign, we plan to notify the Commission about
the change in procedure to allow all CIS complaints to be included in the revamped Consumer
Sentinel system and to be shared with our external law enforcement partners. Assuming the
Commission does not object, we would no longer have to limit the product/service codes into
which external agencies’ complaints are transferred.

FTC/OIG-A/AR 07-003                                                                        Page 13
include complaints from the following BBB product codes: Health & Diet Food Products –
Retail; Health & Diet Food Products – Wholesale/Manufacturing; Weight Control Services;
Exercise & Physical Fitness Programs; Health & Fitness Program Consultants; Health Clubs; and
Health Resorts. It may be true, as noted in the discussion draft, that some of these BBB
complaints may be more appropriately included within the CIS product code entitled “Fitness
Centers\Health Clubs.” However, that code is a non-Sentinel code, whereas “Health Care: Diet
Products\Centers\Plans” is a Sentinel code. At the time we developed the BBB crosswalk, we
were interested in receiving complaints about fitness centers from the BBBs, but we could not
include those complaints under a non-Sentinel code. Given the choice of either not accepting the
complaints or transferring them into the closely related Health Care: Diet Products\Centers\Plans
Sentinel code, we decided on the latter course. This was our conscious choice, not an error.

        Similar explanations can be offered for the other examples cited in the discussion draft.
Under the Sentinel product/service code Credit Repair, we include complaints from two BBB
codes: Credit Repair Services; and Credit Services. The latter code may include complaints
regarding retail credit providers and bill collectors, but the CIS product/service codes for those
areas are non-Sentinel codes. As for the Sentinel product/service code entitled Internet Access
Service, we include complaints from the following three BBB codes: Internet Services;
Computers – Networks; and Electronic Mail Service. It is possible that some BBBs capture
complaints about businesses selling retail products via the Internet by using one of those
product/service codes.

       We will now respond to the specific recommendations in this Finding.

       Recommendation 3

       The OIG recommends that BCP develop quality controls process for uploading
       bulk data from external agencies into CIS.

        As we hope the background discussion has shown, we have developed and follow such a
quality control process. We spend considerable time and effort creating each crosswalk from
external agencies. While we carefully analyze the information provided by the agencies, the
process invariably involves a certain amount of judgement. We believe we exercised correct
judgement in the examples cited in the discussion draft. However, we plan to review all of our
crosswalk mappings as part of the CIS and Sentinel redesign project, and will look for any
potential changes to make the data translations as appropriate as possible.

       Recommendation 4

       The OIG recommends that BCP conduct an outreach or training plan with
       external agencies that provide bulk data that is uploaded into CIS. For example,
       the agency might suggest the external agencies use the FTC Complaint e-form
       that provides pull down menus of PSC’s as well as other useful information.

        Since external agencies that provide us with consumer complaints operate their own
internal complaint processing systems and databases, it would not be appropriate to train them on
FTC/OIG-A/AR 07-003                                                                         Page 14
the correct data collection methods for their systems. Moreover, these agencies have spent
considerable time, effort, and resources developing their own internal systems, and use those
systems for their own reporting and tracking needs. It is highly unlikely that they would use the
FTC complaint form in lieu of their own systems. In addition, external agencies provide their
complaints to us voluntarily, often at their own expense. We are grateful for this data, and do not
want to impose rules on them for contributing complaints. However, we often discuss with
smaller agencies that do not have their own consumer complaint systems the benefits that they
could realize by using Consumer Sentinel for that purpose.

       In conclusion, we once again wish to thank you for this opportunity to respond to the
discussion draft audit report. We hope the information we have provided is helpful. We look
forward to the exit conference for this audit.




FTC/OIG-A/AR 07-003                                                                       Page 15
